GR-50-98-032

U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Police Hiring Supplement Grant 
Awarded to City of Cleveland, Ohio Police Department
Award Numbers 94-DL-CX-0018
 
Audit Report Number GR-50-98-032
 
September 23, 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a $2
million grant awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs
(OJP), to the Cleveland, Ohio Police Department (CPD). The CPD received the grant to hire
or rehire 30 additional sworn police officers under the Police Hiring Supplement
(PHS). The purpose of the grant was to enhance community policing efforts. In brief, our
audit revealed the following:


Reimbursements requested and received were overstated because the CPD was reimbursed at
    a rate of 70 percent instead of the 49 percent permissible under the grant award. As a
    result, we question the $569,577 overstated reimbursement.


Costs charged to the PHS grant were not always in accordance with grant requirements.
    This occurred because the CPD did not consistently maintain the minimum number of locally
    funded sworn officers while being reimbursed by OJP for additional officers. Consequently,
    we question $21,707 charged to the grant.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####